   March 14, 2003




Health Care


Resource Sharing Between
DoD and the Department
of Veterans Affairs
(D-2003-063)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

CHAMPUS              Civilian Health and Medical Program of the Uniformed Services
CMAC                 CHAMPUS Maximum Allowable Charge
GAO                  General Accounting Office
MHS                  Military Health System
MTF                  Military Treatment Facility
NMCP                 Naval Medical Center Portsmouth
PMA                  President’s Management Agenda
PTF                  President’s Task Force
VA                   Department of Veterans Affairs
VAMC                 VA Medical Center
WAMC                 Womack Army Medical Center
          Office of the Inspector General of the Department of Defense
Report No. D-2003-063                                                   March 14, 2003
   (Project No. D2002LF-0129)

                     Resource Sharing Between DoD and the
                        Department of Veterans Affairs

                                 Executive Summary

Who Should Read This Report and Why? DoD medical program managers involved
in developing and evaluating medical resource sharing initiatives between DoD and the
Department of Veterans Affairs (VA) should read this report. Understanding barriers to
sharing and the numerous initiatives to address those barriers will help management
coordinate an overall strategy and increase the sharing that occurs between DoD and VA.

Background. DoD and VA operate two of the nation’s largest health care systems with
a combined budget of $45.7 billion in FY 2002. The primary mission of the DoD
Military Health System is to provide health support for the full range of military
operations and sustain the health of all those entitled to DoD health care. The primary
mission of the Veterans Healthcare System is to serve the needs of America’s veterans by
providing primary care, specialized care, and related medical and social support services.
To improve the cost-effectiveness of Federal health care, while benefiting beneficiaries
of DoD and VA, Congress passed legislation in 1982 to encourage resource sharing. A
variety of organizations have performed audits and reviews to determine barriers to
sharing. Additionally, DoD and VA have established a Joint Executive Council to
provide senior-level oversight of resource sharing efforts.

Results. Although DoD and VA have made progress, barriers exist to increased local
sharing. Numerous audits and reviews have identified and reported many barriers to
local sharing between the two Departments. Removal of the barriers would facilitate
local sharing agreements and ensure health care resources are more fully used. In
addition to local sharing agreements, DoD and VA have ongoing departmental-level
oversight and initiatives to increase sharing. Increased sharing is also part of the focus of
recent executive actions and legislation.

Because of ongoing efforts of numerous groups to review resource sharing between DoD
and VA, we limited our review to summarizing reported barriers to local sharing
agreements and the status of departmental-level sharing efforts. We did not evaluate
management controls.

Management Comments. We provided a draft of the report on January 6, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                            i

Background                                  1

Objectives                                  3

Status of DoD/VA Sharing                    4

Appendixes
     A. Scope and Methodology               14
         Prior Coverage                     15
     B. General Accounting Office Reviews   16
     C. Other Reviews of DoD/VA Sharing     19
     D. Report Distribution                 22
Background
    Health Care Systems. DoD and the Department of Veterans Affairs (VA)
    operate two of the largest health care systems in the United States. The primary
    mission of the DoD Military Health System (MHS) is to provide health support
    for the full range of military operations and sustain the health of all those entitled
    to DoD health care. The primary mission of the Veterans Healthcare System is to
    serve the needs of America’s veterans by providing primary care, specialized
    care, and related medical and social support services.

    In FY 2002, the MHS included 8.4 million eligible beneficiaries, 131,000 staff,
    76 hospitals, and 460 ambulatory clinics with a budget of approximately
    $24 billion.1 In FY 2002, the Veterans Healthcare System included about
    25.3 million eligible beneficiaries, 202,000 staff, 163 medical centers,
    850 ambulatory care and community-based clinics, 137 nursing homes,
    43 domiciliary facilities, 73 comprehensive home-care programs, and
    206 readjustment counseling centers with a budget of approximately
    $21.7 billion.

    President’s Management Agenda. The President’s Management Agenda
    (PMA) for FY 2002 consists of five Government-wide and nine agency-specific
    initiatives for improving Federal Government management. The administration
    envisions improved performance through the removal of barriers to efficient
    management. Coordination of DoD and VA programs and systems is one of the
    nine agency-specific initiatives. The PMA states that, although DoD and VA
    have different missions, there is mission overlap, which presents opportunities for
    cooperation between the health care systems. The PMA outlines four areas of
    opportunity for achieving improvements in DoD/VA sharing:

              •    improving data sharing between DoD and VA health care systems;

              •    improving the VA health care enrollment database, possibly by using
                   the Defense Enrollment Eligibility Reporting System;
              •    eliminating dual eligibility of military retirees for care under DoD and
                   the VA health care systems by requiring annual enrollment in one
                   system or the other, and

              •    implementing recommendations of the President’s Task Force.

    The President’s Task Force to Improve Health Care Delivery for Our Nation’s
    Veterans was established to improve health care coordination between DoD and
    VA. Executive Order No. 13214 established the President’s Task Force (PTF) in
    May 2001.

    The PMA states implementation of the areas of opportunity will result in a
    seamless transition from active duty to veteran status, greater accuracy in

    1
        The MHS budget for FY 2002 included a one-time amount of $3.9 billion for the TRICARE For
        Life Trust Fund.

                                               1
forecasting patient population and budget requirements for both Departments,
improved patient continuity of care with the patient using only one health care
system, and increased sharing of health care services between DoD and VA.

Legislation Authorizing DoD/VA Sharing. Congress passed specific legislation
to encourage resource sharing in order to improve the cost-effectiveness of
Federal health care by reducing redundancy and underuse of resources, while
benefiting beneficiaries of DoD and VA. Federal agencies have had the authority
to share health care resources since the passage of The Economy Act (section
1535, title 31, United States Code) in 1932. Additionally, the Veterans
Administration and Department of Defense Health Resources and Emergency
Operations Act of 1982 authorized DoD and VA health care facilities to enter into
local agreements to share health care on a reimbursable basis. The shared
resources could include hospital and ambulatory care, dental services and
appliances, health care support and administrative services, medical equipment,
and facilities. Title II of the Veterans Health Care Act of 1992 authorized VA
medical centers (VAMCs) to provide care to DoD beneficiaries as a TRICARE
network provider. The Act requires that, “care to DoD beneficiaries must result
in the improvement of services to eligible veterans at the facility.” In addition,
care provided to DoD beneficiaries at VA facilities should not result in the denial
or delay in access to care for any veteran.

The National Defense Authorization Act for FY 2003 contains provisions to
increase sharing between DoD and VA and overcome barriers to sharing. One
provision is the establishment of the Joint Incentives Program that requires the
Secretaries of DoD and VA to identify and implement “creative” coordination and
sharing initiatives. Another provision establishes the Health Care Resources
Sharing and Coordination Project. The project is designed to test the feasibility
and quality of initiatives designed to improve sharing.

VA/DoD Executive Councils. Identifying and removing the barriers to sharing is
the focus of three high-level councils composed of executives from each
Department. The Joint Executive Council is composed of senior-level executives.
The Benefits Executive Council and the Health Executive Council report to the
Joint Executive Council.

Audits and Reviews. A variety of organizations have performed audits and
reviews to determine barriers to sharing between DoD and VA. Summaries of
General Accounting Office (GAO) reports addressing barriers to sharing are in
Appendix B. Summaries of reviews performed by other organizations from 1996
through 2001 that also address barriers to sharing are in Appendix C.

Types of Coordination and Sharing. DoD and VA have developed several
types of sharing. Sharing between DoD and VA falls into four major categories:
local sharing agreements, joint ventures, national sharing initiatives,2 and remote
delivery of health services. Local sharing agreements are between DoD and VA
facilities in close proximity and may cover major medical, surgical, laundry, and
administration and support services. Joint ventures occur when DoD and VA


2
    For the purpose of this review, we included regional sharing initiatives with national initiatives.

                                                2
    share in the construction or operation of hospitals. Joint ventures seek to avoid
    costs by pooling resources to build new facilities or capitalize on existing
    facilities. Joint ventures are operating in Anchorage, Alaska; El Paso, Texas;
    Fairfield, California; Honolulu, Hawaii; Key West, Florida; and Las Vegas,
    Nevada. National sharing initiatives identify and implement interagency
    initiatives that are national in scope, such as consolidated purchasing, patient
    safety, and development of common information systems. National sharing
    initiatives also include the treatment of personnel suffering from traumatic brain
    injury or injury to the spinal cord. Remote delivery of health services are
    agreements between the Military Departments and VA designed to provide health
    services support to beneficiaries of the MHS in remote areas. DoD defines
    remote areas as those areas that are more than 50 miles from the nearest military
    treatment facility (MTF).


Objectives
    The objective of the audit was to review the process used by DoD and VA for
    sharing resources and the effectiveness of existing resource sharing initiatives.
    Because of ongoing efforts of numerous groups to review DoD and VA resource
    sharing, we limited our audit to summarizing reported barriers to local sharing
    agreements and the status of departmental-level sharing efforts. We did not
    evaluate management controls. See Appendix A for a discussion of the scope and
    methodology and Appendixes A, B, and C for prior coverage.




                                        3
            Status of DoD/VA Sharing
            Although DoD and VA have made progress, barriers exist to increased local
            sharing. Numerous audits and reviews of DoD/VA sharing have identified
            barriers to local sharing including:

                    •   variations in access standards,

                    •   incompatible information systems,

                    •   inconsistent charging and reimbursement policies,

                    •   potential legal conflict with TRICARE contracts,
                    •   lack of capacity, and

                    •   few incentives for sharing.

            Removal of the barriers would facilitate DoD/VA local sharing agreements
            and ensure health care resources are more fully used. In addition to local
            sharing agreements, DoD and VA have ongoing departmental-level
            oversight and initiatives to increase sharing. Increased sharing is also part
            of the focus of recent executive actions and legislation.


Local Sharing Agreements
     DoD does not maintain data on the value and number of DoD/VA sharing
     agreements. In September 2000, DoD contracted with Eagle Group International,
     Inc., to obtain comprehensive data on sharing agreements and barriers to sharing.
     The Eagle Group issued “Independent Assessment of Department of Veterans
     Affairs and Department of Defense Sharing Agreements and Program,”
     December 31, 2001 (Eagle Report). The Eagle Group surveyed all VA health care
     facilities and reported that 639 active sharing agreements were in place between the
     DoD and VA health care systems during FY 2000. However, only 406 of the
     agreements were used, resulting in reimbursements of about $56 million.


Barriers to Local Sharing
     The following paragraphs discuss the major barriers to local sharing agreements
     disclosed in prior audits and reviews along with the results of our visits to DoD and
     VA facilities in Hampton Roads, Virginia, and Fayetteville, North Carolina.




                                           4
Variations in Access Standards. Variations in access standards hinder sharing.
DoD implemented Department-wide standards for TRICARE Prime3 enrollee
access; however, implementation of VA Department-wide standards for access is
not required until FY 2006. The VA access standards do not include timeframes
for acute care or routine care appointments, while DoD access standards require
acute care and routine care appointments be scheduled within 24 hours and 7 days,
respectively, of request. According to the Eagle Report, many VA personnel
expressed frustration that their facility did not meet DoD standards and that their
system did not offer similar access to veterans. DoD access standards must be
followed by all health care organizations entering into agreements to provide care
for TRICARE Prime enrollees. For VA to be a DoD provider, VA has to meet
DoD access standards. Doing so, in effect, could give TRICARE Prime enrollees
priority over veterans for appointments when VA access standards are less timely
than DoD access standards.

The PTF interim report, issued in July 2002 (see summary in Appendix C), stated
that timely access to VA health care is hampered because enrolled veterans’
demand for VA health care services is greater than the amount of funding VA
receives to respond to that demand. Based on the PTF interim report and briefings,
it appears much attention is focused on the variation between DoD and VA access
standards and the PTF final report will address access standards as a barrier.

Information Systems. Resource sharing between DoD and VA is hindered
because financial and medical information cannot be easily shared due to
incompatible information systems. Compatible financial information systems
would improve decisions based on financial data and compatible medical
information systems would reduce the risk of medical errors when beneficiaries of
one system are treated in the other system.

According to a Senate study dated July 30, 1998 (see summary in Appendix C),
facility leaders within both Departments generally agree that their financial
information systems do not provide reliable, accurate, or useful estimates of costs
for specific services. Without accurate cost estimates, the Departments cannot
make good decisions on whether to purchase care from the private sector or share
the providing of medical services. The Senate study indicates the development of
accurate cost estimates is hindered by the complexity of cost accounting systems
and the multiple sources and accounting methods for tracking costs related to
equipment, facility, and support services. Accurate cost determination within DoD
is further hindered by the competing demands on the MHS to provide peacetime
health services as well as satisfy wartime requirements and readiness and training
missions. The Senate study concludes that one of the keys to realizing the potential
of local sharing opportunities will be accurate cost accounting and appropriate
pricing of services.

DoD and VA also maintain and use incompatible medical information systems. In
order to maximize sharing opportunities, the Departments must be able to


3
    TRICARE consists of three options: Prime, Extra, and Standard. TRICARE Prime is equivalent
    to a civilian health maintenance organization.



                                            5
exchange compatible and comparable clinical data. GAO reported (see summary
of GAO Report No. GAO-02-1017 in Appendix B) that DoD and VA patients who
receive medications from both Departments face an increased risk of medication
errors, in part because information in one Department’s medical information
system is generally not accessible by the other Department.

The National Defense Authorization Act for FY 2003 requires the establishment of
a DoD/VA Health Care Resources Sharing and Coordination Project at a minimum
of three sites. At the selected sites, coordinated financial and medical information
systems must be developed to identify departmental costs and to effectively
communicate medical information.

Charging and Reimbursement Policies. In the past, charges for services
provided under resource sharing agreements varied significantly because there was
no consistent methodology for computing costs or setting prices. The Eagle Report
stated DoD and VA personnel used a wide range of methods to determine charges
for services rendered under sharing agreements. The rates were ad hoc agreements
between DoD and VA facilities and were highly dependent on the staff negotiating
the sharing agreement. Some agreements had no clear description of the basis for
the rates and some based their rates on CHAMPUS4 maximum allowable charge
(CMAC), Medicare rates, interagency rates, cost-plus-markup, incremental cost
incurred, or bartering.

On May 3, 2002, the Under Secretary of Defense for Personnel and Readiness and
the VA Deputy Secretary issued a statement that a single financial reimbursement
methodology would be used for determining charges and reimbursements between
the two Departments. The financial reimbursement methodology agreed to was the
CMAC less 10 percent. The rate would be applied to both institutional and
professional charges. However, waivers from using the standardized rate could be
granted if the standardized rate did not cover marginal costs or if the standardized
rate was higher than local market rates and both parties desired a larger reduction
from CMAC.

Initial implementation of the standardized rate for ambulatory care services started
the first quarter of FY 2003. Implementation for inpatient care was planned to
begin in the third quarter of FY 2003. The Health Executive Council expects that
using a standard reimbursement rate will simplify negotiations on sharing
agreements, standardize business practices, enhance data analysis, and simplify
billing between DoD and VA.

Potential Legal Conflict With TRICARE Contracts. Some DoD and VA
facilities closely located may not have established sharing agreements because of
the potential legal conflict with TRICARE contracts. According to GAO, in early
1999, the TRICARE Assistant General Counsel issued an opinion that sharing
agreements between DoD and VA violated the managed care support contracts in
Regions 1, 2, and 5.5 The opinion was based on a clause in the TRICARE

4
    Civilian Health and Medical Program of the Uniformed Services.
5
    Those regions were impacted because they operated under a revised financing version of the
    TRICARE contract.



                                              6
contracts for those regions that stated MTFs could not establish separate networks
for non-primary care outside of the TRICARE network. On May 14, 1999, the
Assistant Secretary of Defense (Health Affairs) issued a memorandum to the
TRICARE lead agents through the Surgeons General that stated DoD policy was to
encourage VA health facilities to participate in the TRICARE network as
providers. The memorandum appeared to restrict DoD to referring patients in those
regions to VAMCs that were TRICARE network providers, in effect prohibiting
MTFs from using existing sharing agreements with VA.

Discussions with VA personnel disclosed that the VA would prefer to provide
services through local sharing agreements rather than through the TRICARE
network. Additionally, receiving VA services through sharing agreements would
also allow DoD to avoid paying the TRICARE contractor profit and overhead
costs.

On August 1, 2002, the DoD TRICARE Management Activity released the
TRICARE Contract Request for Proposal for the next generation of TRICARE
contracts. The Request for Proposal allows DoD and VA to enter into direct
sharing agreements for mutually agreed upon services. Bids for the TRICARE
Contract Request for Proposal were due January 29, 2003.

Capacity. The potential to establish local sharing agreements may be limited due
to the lack of available capacity in DoD and VA health care facilities. According
to the Eagle Report, it appears there is little available capacity in DoD for sharing
health care services and available VA capacity is limited to inpatient care.

Capacity is discussed throughout the Eagle Report, which states that the DoD
capacity to treat VA beneficiaries is not known but, due to significant downsizing
of DoD personnel and facilities, there may not be available capacity for DoD to
treat VA beneficiaries. The report states that VA facilities have available inpatient
capacity, but not outpatient capacity. The report further states that the best
opportunities for sharing might not be in health care services, but in infrastructure,
national purchasing programs, integrated facilities, common information systems,
and common logistical efforts.

The National Defense Authorization Act for FY 2003 states that at least one of the
three sites in the Health Care Resources Sharing and Coordination Project will
include a coordinated DoD and VA personnel and staffing assignment system. The
establishment of a coordinated personnel and staffing system is an important step
toward ensuring any unused capacity within each Department at a given location is
identified and shared on a day-to-day basis.

Incentives. According to the PTF interim report, neither DoD nor VA provides
sufficient incentives to encourage health care facility senior management to enter
into local sharing agreements. Additionally, the Senate study stated that facility
leaders in both systems focus on coping with requirements to serve their own
beneficiary populations as their first priority. Sharing opportunities may be lost
because only one Department will benefit. Therefore, sharing agreements are
essentially limited to those situations in which both Departments will benefit. “The
Report to the Vice President on Strategies for Jointly Improving VA and DoD
Health Systems,” May 1996 (see summary in Appendix C), states DoD and


                                      7
VA agreed the best strategy for sharing would be to link the two health care
networks wherever there is substantial mutual benefit. Following are two examples
of recently proposed sharing agreements at sites we visited that demonstrate
sharing agreements are typically limited to situations in which both Departments
benefit.

       Fayetteville. In a September 2001 proposal, Fayetteville VAMC requested
that Womack Army Medical Center (WAMC) bid on VAMC surgeons performing
50 general surgeries annually at WAMC. The proposal stated Fayetteville VAMC
would provide a surgeon to WAMC 1 day a week and, after performing surgery on
a VA patient, the surgeon would be available for the rest of the day to perform
surgeries on WAMC patients. WAMC would be responsible for providing the
operating room and support staff. Although WAMC had the available operating
room space, WAMC rejected the Fayetteville VAMC surgery proposal because
WAMC did not have available inpatient capacity that some surgery patients would
need during recovery. WAMC also stated that the VA surgeon would need to be
available more than 1 day a week to perform the pre- and post-operative care
associated with surgery.

MTF commanding officers are evaluated on how well they care for TRICARE
Prime enrollees and not how well they care for VA beneficiaries. Caring for VA
patients in areas where the MTF has a heavy workload could affect access for
TRICARE Prime enrollees or force the MTF to send those enrollees to contract
providers, which would increase MTF operating costs. In addition, the WAMC
commanding officer stated there are no guarantees that DoD and VA will continue
to provide the staffing needed to support sharing agreements negotiated at the local
level.

       Hampton Roads. A visit to Hampton VAMC and Naval Medical Center
Portsmouth (NMCP) showed local sharing agreements for health care services can
be worked out when both Departments benefit. For example, in May 2002
Hampton VAMC submitted a sharing agreement proposal to NMCP requesting
NMCP to perform approximately 300 general inpatient surgeries for the VA
annually. NMCP agreed and began performing the surgeries in July 2002. As of
January 27, 2003, the reimbursement rate for the surgeries was still being
negotiated. NMCP agreed to perform the surgeries because it needed to increase
the number of specific types of surgeries to maintain its accreditation for Graduate
Medical Education programs.

The PTF interim report states that neither DoD nor VA consistently provided
incentives for leadership to foster DoD/VA collaborative efforts. The co-chair of
the PTF told Congress that the instances where DoD and VA treatment facilities
have forged joint operating and sharing agreements occurred because local leaders
in those communities made them a priority. According to the co-chair, there are
not many incentives to encourage DoD and VA to cooperate and pursue sharing
opportunities. The promotion system in the military does not lend itself to include
incentives or rewards for sharing and VA does not have an explicit structure that
rewards sharing. The co-chair stated that people will perform to what they are
being measured against and having performance incentives will drive change. We
agree that incentives for sharing and measures of program success are essential to
maximize sharing opportunities.


                                      8
Departmental-Level Oversight and Initiatives
     In addition to the local sharing agreements, oversight and coordination is ongoing
     at the DoD and VA departmental level to identify and implement joint sharing
     opportunities. Departmental sharing opportunities are implemented primarily
     through national sharing initiatives and have significant mutual benefit potential
     because the focus is on major information systems, procurements, and
     infrastructure common to DoD and VA health care systems.

     Joint Executive Council. The Joint Executive Council was established in January
     2002 and is co-chaired by the Under Secretary of Defense for Personnel and
     Readiness and the VA Deputy Secretary. The Joint Executive Council includes
     senior DoD and VA health care managers involved in sharing initiatives.
     Responsibilities of the council include providing direction for ongoing sharing
     initiatives and discussing measures to further increase collaborative efforts.
     Quarterly meetings are held to provide leadership oversight of interdepartmental
     cooperation at all levels and to oversee the efforts of the Health Executive Council
     and the Benefits Executive Council. In May 2002, the Joint Executive Council
     chartered the VA/DoD Joint Strategic Planning Executive Steering Committee to
     develop a joint 5-year strategic plan for DoD/VA collaboration.

     Health Executive Council. The co-chairs of the Health Executive Council are the
     Assistant Secretary of Defense (Health Affairs) and the VA Under Secretary for
     Health. The council includes senior-level health executives from both Departments
     and the Military Surgeons General. The Health Executive Council works to
     improve local sharing as well as national sharing and is responsible for developing
     departmental-level initiatives that will result in increased sharing between DoD and
     VA. To satisfy that responsibility, the Health Executive Council has established
     the following nine workgroups: Benefits Coordination, Geriatric Care, Financial
     Management, Information Management/Technology, Joint Facility
     Utilization/Resource Sharing, Patient Safety, Clinical Practice Guidelines,
     Pharmacy, Medical Surgical Supplies, and Deployment Health. The workgroups
     are composed of field and headquarters personnel with expertise in the specific area
     and are charged with identifying areas where increased DoD/VA coordination can
     be realized.

     Benefits Executive Council. The Benefits Executive Council is co-chaired by the
     Principal Deputy Under Secretary of Defense for Personnel and Readiness
     (formerly the Assistant Secretary of Defense [Force Management Policy]) and the
     VA Under Secretary for Benefits. The Benefits Executive Council provides an
     official forum for senior-level interaction between the DoD and the Veterans
     Benefits Administration. The council is examining ways to expand and improve
     information sharing, refining the process of record retrieval, and identifying
     procedures to improve the benefits claims process.

     Infrastructure. DoD and VA are collaborating in their respective capital asset
     planning initiatives. The DoD workgroup for health care facilities planning
     includes personnel from each Military Department’s medical facility planning
     office and VA representatives. In the fall of 2002 the VA selected a nine-member
     commission to implement a program called Capital Asset Realignment for


                                           9
Enhanced Services that supports the improved delivery of health care services. At
the request of the VA Under Secretary of Health, DoD provided the VA with three
personnel to assist in the planning process for the program. The three DoD
personnel provide expertise in the clinical, facilities, and operations areas of health
care. The DoD TRICARE lead agents attend VA regional meetings to provide
information on the capabilities of the local MTFs. The commission will analyze
demographics and services at VA clinics and hospitals and issue a report in August
2003 with recommendations on where to add or eliminate services to improve
efficiency. The VA/DoD Joint Strategic Planning Executive Steering Committee
will provide oversight of the VA Capital Asset Realignment for Enhanced Services
and the DoD Base Realignment and Closure processes.

Consolidated Purchasing. DoD and VA have been able to achieve savings by
entering into joint contracts to purchase pharmaceuticals. According to the Joint
Executive Council, as of December 2001, there were 57 joint national contracts, 35
pending joint contracts, and 30 proposed joint contracts. By consolidating
purchases, the Departments are able to exert leverage to obtain discounts when they
commit to buy increased volumes of drugs. According to GAO, the joint
procurement discounts resulted in a cost avoidance of about $40 million in
FY 2000. According to the VA Deputy Secretary, joint procurement discounts for
pharmaceuticals totaled about $98 million in FY 2001.

GAO testified in June 2002 that potential savings exist if DoD and VA purchase
medical and surgical supplies jointly. Although DoD and VA achieved modest
savings by purchasing medical and surgical supplies through local joint contracting
agreements, the Departments had not awarded joint national contracts. Although it
is difficult to quantify the potential savings that joint national contracts could yield,
GAO stated the savings could be meaningful, given that the Departments’ separate
national and regional contracts are expected to save an estimated $19 million
annually.

Common Information Systems. The Health Executive Council developed the
Joint VA-DoD Electronic Health Records Interoperability Plan. The plan is
intended to result in computerized health record systems that ensure
interoperability between the DoD and VA health information systems. To achieve
the objective to have interoperable computerized health record systems, the
Departments intend to standardize health and related data, communications,
security, and software applications where appropriate. GAO testified in
September 2002 that DoD and VA anticipate being able to implement a two-way
exchange of health care information by the end of 2005. Currently, the
Departments are using the Federal Health Information Exchange to share health
care information. The Federal Health Information Exchange allows a one-way
transfer of data from existing DoD health care information systems to a separate
database that VA hospitals can access. According to GAO, information provided
through the Federal Health Information Exchange has been particularly valuable to
VA for treating emergency room and first-time patients.

Patient Safety Program. DoD established its patient safety program by adopting
the patient safety program developed by VA. The cornerstone of the program is the
centralized collection and analysis of patient safety data. VA is developing
software for maintaining a database of reported adverse events that cause, or could


                                       10
     cause, unexpected harm to a patient while providing care. DoD is considering
     using the VA software, once it is completed, to keep program development cost at a
     minimum and facilitate the sharing and consolidation of patient safety data. VA
     also developed a training program for patient safety personnel at each of its
     hospitals, and DoD developed training that parallels the VA program. The training
     ensures consistency in the methods for identifying and researching adverse events.
     The Health Executive Council provides oversight to this national sharing initiative.


Executive and Legislative Focus
     Increased sharing is the focus of recent executive and legislative actions. The PTF
     to Improve Health Care Delivery for Our Nation’s Veterans was established to
     improve health care coordination between DoD and VA. In addition, a detailed
     approach to increase sharing is included in the National Defense Authorization Act
     for FY 2003.

     President’s Task Force to Improve Health Care Delivery for Our Nation’s
     Veterans. The PTF was tasked to identify opportunities for improved resource use
     through DoD/VA partnership; review barriers impeding DoD/VA coordination; and
     identify opportunities to improve business practices to ensure high quality and
     cost-effective care. The PTF tasking also included the identification of ways to
     improve benefits and services for VA beneficiaries and DoD military retirees
     eligible for VA benefits through better coordination between the two Departments.

     To accomplish the President’s tasking, the PTF established workgroups to review
     benefit services, acquisition and procurement, facilities, information
     management/information technology, leadership and productivity, pharmaceuticals,
     and resource/budgeting. The workgroups were directed to identify opportunities
     for sharing and make recommendations for improvements. The PTF issued an
     interim report in July 2002 discussing the progress made in each of the areas
     reviewed by the workgroups. The interim report did not make any
     recommendations; however, the report concluded that DoD and VA lack the
     required coordinated resource planning and budgeting process to ensure
     collaboration. In addition, both Departments have independent performance
     measures, which do not provide incentives for appropriate interdepartmental
     collaboration.

     The PTF recognizes that there are numerous reasons for the history of limited
     collaboration between DoD and VA, including differing missions, funding
     limitations, incompatible information systems, and institutional cultural barriers.
     The PTF is attempting to address those barriers and a final report is due March 30,
     2003. The final report is expected to have recommendations that will address
     barriers, encourage all types of sharing where appropriate, and have a measurable
     impact on the delivery of benefits and services.




                                          11
National Defense Authorization Act for FY 2003. The National Defense
Authorization Act for FY 2003 requires the establishment of a Joint Incentives
Program and a Health Care Resources Sharing and Coordination Project. The Joint
Incentives Program will require that the Secretaries of DoD and VA identify and
implement “creative” coordination and sharing initiatives. The initiatives may
occur at local, regional, or national levels. To fund the Joint Incentives Program,
each Secretary is expected to contribute at least $15 million from appropriated
funds on an annual basis, beginning October 1, 2003. The program will terminate
on September 30, 2007. The program’s implementation and effectiveness is to be
reviewed annually by the Comptroller General. The review is to include an
analysis of the funds expended on sharing initiatives, an analysis of any
improvements in the quality of care received by beneficiaries, and
recommendations about possible legislative improvements to the program.

The Health Care Resources Sharing and Coordination Project is to be carried out at
a minimum of three sites where the feasibility and quality of initiatives designed to
improve sharing can be evaluated. The sites selected should have at least one VA
facility and one MTF in close proximity. All of the sites will test at least one
element of a coordinated management system with at least one site testing all
elements.

The coordinated management system elements include:

       •   a budget and financial management system that will provide managers
           with costing information that will enable them to assess the cost-
           effectiveness of using either Department for health care;

       •   a staffing and assignment system for personnel; and

       •   a medical information and information technology system that is
           compatible with the project’s purposes.

Funds for the Health Care Resources Sharing and Coordination Project are to be
made available by each Secretary beginning in FY 2003. The funding amount from
each Department is $3 million in FY 2003, increasing to $9 million in FY 2005,
and remaining at that amount until the project terminates in September 2007. The
Comptroller General is to conduct annual on-site reviews at each location and
submit a report to the Senate and House Committees on Armed Services and
Veterans’ Affairs. The report is to include a statement that the funds appropriated
for sharing activities are being used for direct support of the sharing initiatives.

In addition, the National Defense Authorization Act for FY 2003 has provisions
that require the Secretaries of both Departments to develop a joint strategic vision
statement and strategic plan to help in shaping and coordinating the sharing effort.
The Act establishes the interagency VA-DoD Health Executive Committee to
provide strategic direction for sharing efforts and to oversee the implementation of
those efforts. We believe that developing a joint strategic plan and creating an
interagency committee to provide strategic direction as required in the National
Defense Authorization Act for FY 2003 will facilitate the removal of barriers to
DoD and VA sharing.



                                     12
Summary
   Removing identified barriers will provide opportunities for increased DoD/VA
   sharing at the facility level. However, we agree with the Eagle Report that
   significant opportunities for sharing are in national sharing initiatives such as
   infrastructure, information systems, logistics, and the establishment of totally
   integrated facilities. The coordinated Department-level focus being provided by
   the Joint Executive Council, the PTF, and provisions of the National Defense
   Authorization Act for FY 2003 provides the proper forum to address the major
   opportunities for sharing. Although limited progress has been made with sharing
   initiatives, it is critical that recent momentum be maintained. Establishing a
   strategic vision and plan with measures of success will facilitate sharing at all
   levels. Because of the summary nature of this report, we are not making
   recommendations.




                                       13
Appendix A. Scope and Methodology
   We reviewed the DoD and VA Health Resources Sharing and Emergency
   Operations Act of 1982; applicable Assistant Secretary of Defense (Health Affairs)
   and VA guidance; and relevant statutes to obtain policies and procedures that
   address DoD/VA resource sharing and to obtain criteria that must be met in order
   to enter into agreements. We reviewed pertinent congressional legislation
   addressing DoD/VA sharing. We reviewed the section of the PMA for FY 2002
   pertaining to DoD/VA sharing. We reviewed Executive Order No. 13214
   establishing the PTF on DoD/VA sharing. We reviewed previous audits and
   studies of DoD/VA sharing carried out since 1996.

   We interviewed a DoD member and a VA member of the Health Executive Council
   to discuss issues the council is addressing. We interviewed members of the PTF, to
   include DoD and VA subject matter experts on resource sharing, leadership, and
   productivity, and the head of the resource/budgeting workgroup. We interviewed
   the VA representative to TRICARE contract negotiations to determine VA
   concerns regarding DoD/VA sharing under TRICARE. We interviewed personnel
   assigned to the Assistant Secretary of Defense (Health Affairs) to obtain a history
   of DoD/VA sharing, the status of local sharing agreements, studies of DoD/VA
   sharing, and the status of strategic planning between the two Departments. We
   attended PTF sessions to discuss and gain insight into the functioning of the task
   force and actions the task force is contemplating. We attended the TRICARE
   Region 2 conference session on resource sharing to obtain an overview of the
   interaction of VA and TRICARE.

   We met with personnel from Hampton VAMC, Richmond VAMC, Fayetteville
   VAMC, NMCP, and WAMC to determine the status of local sharing agreements
   and how sharing opportunities are identified. At those locations, we also discussed
   departmental barriers and site-specific barriers to DoD/VA sharing.

   We performed this audit from April 2002 through January 2003 in accordance with
   generally accepted government auditing standards.

   The scope of our review was limited. Because numerous groups are reviewing
   DoD/VA sharing, we limited our review to summarizing reported barriers to local
   sharing agreements and the status of departmental-level sharing efforts. We did not
   evaluate management controls. In addition, we relied on reports, studies, and
   testimonies provided by other groups without validating the information.

   Use of Computer-Processed Data. We did not rely on any computer-processed
   data.

   GAO High-Risk Area. The GAO has identified several high-risk areas in DoD.
   This report provides coverage of the DoD Infrastructure Management high-risk
   area.




                                       14
Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) issued one report discussing DoD/VA sharing. Unrestricted IG DoD
    reports can be accessed at http://www.dodig.osd.mil/audit/reports. Summaries of
    DoD/VA sharing reviews by GAO are in Appendix B and reviews performed by
    other organizations are in Appendix C.

IG DoD
    IG DoD Report No. D-2001-037, “Collection and Reporting of Patient Safety Data
    Within the Military Health System,” January 29, 2001




                                       15
Appendix B. General Accounting Office Reviews
   Following are summaries of reports issued by GAO addressing DoD/VA sharing
   issues during the past 5 years. Unrestricted GAO reports can be accessed over the
   Internet at http://www.gao.gov.

   GAO Testimony No. GAO-02-1054T, “VA Information Technology:
   Management Making Important Progress in Addressing Key Challenges,”
   September 26, 2002. The testimony was given before the House Subcommittee on
   Oversight and Investigations, Committee on Veterans’ Affairs. GAO gave an
   update on the progress of the DoD, VA, and Indian Health Service Government
   Computer-Based Patient Record Project. The Government Computer-Based
   Patient Record Project was originally envisioned as establishing an electronic
   interface that would enable DoD, VA, and the Indian Health Service to share
   patient information among their health information systems by creating a “virtual
   record” that could be viewed on the provider’s or authorized user’s computer
   monitor. The project was scaled back and renamed the Federal Health Information
   Exchange Program. The Federal Health Information Exchange Program is now a
   joint project between DoD and VA that enables the exchange of health care
   information between DoD and VA. The Federal Health Information Exchange
   Program is a one-way transfer of information from the DoD health care information
   system to a separate database that VAMCs can access to obtain demographic and
   limited clinical information on Service members who have separated from the
   military. The Federal Health Information Exchange Program is available at all
   VAMCs and is showing good results.

   GAO Report No. GAO-02-1017, “VA and Defense Health Care: Increased
   Risk of Medication Errors for Shared Patients,” September 2002. Congress
   requested that GAO perform an audit of how effective medication safeguards were
   for patients shared between the DoD and VA health care systems. GAO found
   increased risk in medication safety occurred due to separate, uncoordinated
   information systems and formularies maintained by DoD and VA. The gaps were
   attributed to the inability of providers and pharmacists to access complete patient
   records in the other Department’s system. The report recommended developing the
   capability for providers to access relevant patient information, regardless of which
   information system the information resided on, and providing training for providers
   on how to access the information. GAO further stated there were risks to patients
   when providers used the other Department’s formulary because the formulary may
   contain drugs unfamiliar to providers. The report recommended the establishment
   of a joint DoD/VA pharmacy and therapeutics committee or workgroup to
   determine the best way to meet the medication needs of shared patients.




                                        16
GAO Testimony No. GAO-02-969T, “VA and DoD Health Care: Factors
Contributing to Reduced Pharmacy Costs and Continuing Challenges,”
July 22, 2002. The testimony was given before the House Subcommittee on
National Security, Veterans Affairs, and International Relations, Committee on
Government Reform. GAO discussed how DoD and VA had reduced pharmacy
costs by establishing formularies, a variety of pharmaceutical purchasing
arrangements, and Consolidated Mail Outpatient Pharmacies. The report stated
that the Departments need to address how differences in their patient populations,
national formularies, and prescribing practice patterns among providers can be
managed to assist with further joint procurement of pharmaceuticals.

GAO Testimony No. GAO-02-872T, “VA and Defense Health Care: Potential
Exists for Savings through Joint Purchasing of Medical and Surgical
Supplies,” June 26, 2002. Congress requested that GAO perform an audit of DoD
and VA progress in joint procurement of medical and surgical supplies. GAO
stated that DoD and VA had saved more than $170 million annually by jointly
procuring pharmaceuticals. However, the Departments had not been successful in
developing a joint national contract for medical and surgical supplies due to
differing approaches to contracting and the inability to identify similar
high-volume, high-dollar items purchased by each Department. The testimony
disclosed both Departments were implementing automated procurement
information systems but the data provided by the new systems may not be
compatible.

GAO Report No. GAO-01-459, “Computer-Based Patient Records: Better
Planning and Oversight by VA, DoD, and IHS Would Enhance Health Data
Sharing,” April 2001. In 1998, DoD, VA, and Indian Health Service initiated the
development of the Government Computer-Based Patient Record. The purpose of
the Government Computer-Based Patient Record was to create an electronic
interface enabling DoD, VA, and the Indian Health Service to share patient data.
Due to the complexity of the Government Computer-Based Patient Record,
Congress subsequently asked GAO to report on the project’s timeframes, costs, and
expected benefits and determine if barriers to the project’s progress existed. GAO
reported the basic principles of information technology planning, development, and
oversight were not being followed. The report recommended the creation of
comprehensive coordinated plans to include agreed-upon goals, mission statement,
objectives, and performance measures so that the Departments can share patient
health care data. The report also recommended the designation of a lead agency
with final decision-making authority and the establishment of a clear line of
authority.

GAO Report No. HEHS-00-52, “VA and Defense Health Care: Evolving
Health Care Systems Require Rethinking of Resource Sharing Strategies,”
May 17, 2000. Congress requested that GAO study DoD/VA health care resource
sharing, concentrating on the benefits gained from sharing resources, the extent of
sharing between the Departments, and barriers encountered in attempts to share.
GAO reported that there were significant long-standing barriers to sharing and that
sharing occurred between very few DoD and VA facilities. The barriers cited in
the report were inconsistent reimbursement and budgeting policies; an apparent
lack of understanding regarding the setting of reimbursement rates (incremental
verses total costs); budgeting processes that encourage local facilities to keep


                                     17
beneficiaries within their own health care systems; lack of available capacity in the
VA facilities; and a DoD legal opinion that prohibited MTFs from using local
sharing agreements. The report recommended that DoD contractors be given
guidance on how to process VA claims and ensure timely reimbursement and that
VA facilities follow VA guidelines to charge incremental costs. The report also
recommended that DoD and VA perform an assessment to determine the most
cost-effective means of providing care to beneficiaries, along with the current and
future available capacity, and that DoD reevaluate its sharing position and
determine the most cost-effective way to use Federal health care resources. The
report further recommended that Congress should consider providing direction if
DoD and VA could not resolve differences on resource sharing.




                                     18
Appendix C. Other Reviews of DoD/VA Sharing
   “President’s Task Force to Improve Health Care Delivery for Our Nation’s
   Veterans, Interim Report,” July 31, 2002. The PTF interim report identifies the
   following critical issues that must be addressed in order to increase DoD and VA
   sharing.

          •   The mismatch between funding for the VA health care system and the
              demand for services from VA enrollees must be resolved.

          •   Senior DoD and VA leadership must be continuously committed to
              encouraging DoD and VA sharing.
          •   DoD and VA must manage the rapidly escalating costs of
              pharmaceuticals.

          •   DoD and VA must recognize the role of information management and
              information technology in supporting sharing efforts and use those
              tools.

   In addition, the interim report states that recommendations from previous studies of
   DoD/VA sharing had not been aggressively or effectively implemented. Policies
   and decisions made at the senior level had not consistently been carried out at the
   local or regional level. The report states that recommendations had not been
   implemented because implementation and leadership responsibilities had not been
   well defined; guidance, strategic plans, and goals to direct the operational levels of
   DoD and VA in the sharing effort were needed; and performance measures to
   monitor progress had not been instituted. The PTF plans to include
   recommendations in its final report, expected to be issued in March 2003, that will
   eliminate barriers and promote sharing to ensure veterans receive high-quality care
   in a timely fashion.
   “Independent Assessment of Department of Veterans Affairs and Department
   of Defense Sharing Agreements and Program,” December 31, 2001 (Eagle
   Report). The Eagle Group International, Inc., under DoD contract, conducted a
   study of DoD/VA sharing. The Eagle Group developed an inventory of sharing
   agreements, reviewed sharing policy, and determined the use of each sharing
   agreement. The Eagle Report states that many of the facilities involved in resource
   sharing agreements had no idea of the costs, revenues, or value derived from the
   sharing agreements. It also states that a study was needed to determine whether it
   would be more beneficial for the Government to pursue direct sharing of resources
   between DoD and VA or to have VA become a TRICARE network provider.

   The report also noted a lack of guidance and training. Specifically, VA personnel
   cited a lack of training about the sharing program and the function of VA as a
   TRICARE provider, and DoD personnel cited the management of the sharing
   program. Both DoD and VA personnel said the process of negotiating agreements
   was lengthy and cumbersome. The report recommended simplifying the sharing



                                         19
program through the issuance of policy encouraging regional and national
agreements when possible. It also recommended that DoD and VA simplify the
sharing agreement approval process and establish timeliness standards for the
local-level approval process.

The Eagle Report cites lack of a clear reimbursement methodology as a barrier.
Other barriers discussed in the report include no available capacity to allow
participation in a sharing program, the inability of the VA to meet DoD access
standards, the lack of a strategic plan for the development and use of sharing
agreements, and incompatible medical and cost accounting systems. The report
further states that the best opportunities for sharing might not be in health care
services, but in infrastructure, national purchasing programs, integrated facilities,
common information systems, and common logistical efforts.

“A Joint Review of Law and Policy for DoD/VA Sharing,” March 15, 1999
(Birch and Davis). Birch and Davis Associates, Inc., were hired by DoD to
conduct a review, mandated by Public Law 105-261, of law and policies to identify
barriers to sharing between DoD and VA. The review found that, generally, there
were no barriers within the laws that provide legislative and policy guidance for
sharing. However, the review identified several non-legislative barriers to sharing.
For example, it found that a common perception of MTF and VA officials was that
resources saved through sharing were not benefiting the facility. Also, the review
found information technology incompatibilities between the DoD and VA
computerized medical information systems and cost accounting systems. The
review found that no study had been performed to determine whether it would be
more beneficial to pursue direct sharing of resources between DoD and VA or to
have VA facilities become TRICARE providers, and the report recommended that
a feasibility study be conducted. The report concludes that due to base closures,
downsizing of DoD personnel and facilities, and demand by TRICARE
beneficiaries exceeding available services, it appears that DoD capacity is limited.

“Congressional Commission on Servicemembers and Veterans Transition
Assistance,” January 14, 1999 (Principi Report). Congress, through the
Veterans’ Benefits Improvement Act of 1996, established the Commission on
Servicemembers and Veterans Transition Assistance. The Commission was tasked
with reviewing programs that provide benefits and services to veterans and Service
members transitioning to civilian life and proposing recommendations as needed.
The Principi Report recommended the Departments combine their purchasing
power to negotiate lower prices and further reduce costs by eliminating redundant
procurement operations. The report also recommended joint procurement of
information technology and the development of a cost accounting system with the
capability of generating financial and management data to enhance partnering by
overcoming institutional barriers.

“The DoD and VA Health Systems: Increased Access and Improved Cost
Effectiveness Through Enhanced Partnering,” July 30, 1998 (Senate Study).
The report from the Senate Committee on Armed Services that accompanied the
National Defense Authorization Act for Fiscal Year 1998 requested that the
Secretary of Defense conduct a study, in conjunction with the VA, to explore
DoD/VA partnering actions. The study was to focus on actions that could be



                                      20
implemented to improve beneficiary access to health care while also improving the
overall cost-effectiveness of both health care systems. The study noted that a
barrier to sharing was a shortage of primary care resources by both DoD and VA.
Another reported barrier was that VA facilities had organizational and financial
incentives to share, but MTFs appeared to have no such incentives. The study
further noted that the lack of a reliable cost accounting system, and the resulting
inability to arrive at acceptable prices, limited the volume of services obtained
through sharing agreements.

“Report to the Vice President on Strategies for Jointly Improving VA and
DoD Health Systems,” May 1996 (DoD and VA). As part of the Reinventing
Government initiative, DoD and VA were tasked to establish a long-range vision of
DoD and VA health care systems. DoD and VA were also tasked with performing
a joint study to determine effective incentives to encourage maximum cooperation,
sharing, and integration at the local levels. The report, issued jointly by DoD and
VA, recommended the creation of a Sharing Alliance Planning Board to enhance
joint planning. Goals for the Board included developing strategic plans to enhance
efficient health care delivery, identifying opportunities for the sharing and
integration of services to maximize use of resources, and facilitating the
implementation of sharing initiatives.




                                    21
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Principal Deputy Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Department of Veterans Affairs
  Deputy Secretary
  Inspector General




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Committee on Veterans’ Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Committee on Veterans’ Affairs




                                          23
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Michael A. Joseph
Sanford W. Tomlin
G. Paul Johnson
James A. O’Connell
Mary J. Gibson
Lynnell E. Hines
Mary Ann Hubbell
Elizabeth L.N. Shifflett
Susann L. Cobb
